         Audit of Controls over Government Calling Cards




                                 FINAL AUDIT REPORT





                                            ED-OIG/A19-B0011
                                               October 2002




Our mission is to promote the efficiency,                      U.S. Department of Education
effectiveness, and integrity of the                            Office of Inspector General
Department’s programs and operations.                          Operations Internal Audit Team
                                                               Washington, DC
  Statements that managerial practices need improvements, as well as other 

                conclusions and recommendations in this report 

represent the opinions of the Office of Inspector General. Determinations of 

 corrective action to be taken will be made by the appropriate Department of 

                              Education officials. 



In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports 

   issued by the Office of Inspector General are available, if requested, to 

 members of the press and general public to the extent information contained 

               therein is not subject to exemptions in the Act. 

                      UN ITED STAT ES D EPARTMENT OF EDUCATION

                                        OFFICE OF I NSPEcroR GI:>N€AAL




                                                                                     otT24l11l!

M EMORA NIl UI\ 1

TO:             Craig B. Luigan
                Chief Infonnation Officer


FROM:           " d", Lo"         -IfdA-l;J
                Acting Assistant [nspeclOf General for Audit Services

SUBJECT:        FJ1\'AL AUDIT REPORT
                Audit o f Controls over Government Calling Cards
                Comrol No. ED-OIG/AI9-130011

Auaehed is our subject final report that covers the results of OUf revicw of the
Depanment's controls over Government calling cards. We reccived your comments
concurring with the findings and recol11l11cnd<ltions in our dmll audit report.

In accordance with the Freedom oflnfonnation Act (5 U.S.C § 552), repom issued by
the Office of Inspector General are available, if requested, to members of the press and
general public to the extent infornlation contained therein is not subject to exemptions in
the Act.

We appfeci<ltc the coopcration given tiS in the review. Should you have any questions
conccrning this repon, plcase call Michele Weave r-Dugan, Director. Operations internal
Audit Team, at (202) 863-9526.

Attachment




                               400 r.tAI!YI.ANO AVE .• S.W WASH I NGTON, D.C. 20201·,510

        00, . . - is '0 ....."'" oquul o>m<U '"   .,J""",..... and '" pro"""" o<d~""'....."   ..".11<""" ~, "'~ Na.-.
                                    TABLE OF CONTENTS 




                                                                                                              Page


EXECUTIVE SUMMARY ..................................................................................... 1 


AUDIT RESULTS................................................................................................... 3 


        Finding No. 1 – Improvements Were Needed in the Management of 

              the Department’s Calling Card Program............................................. 3 


                 Recommendations ............................................................................... 5 


        Finding No. 2 – Calling Cards Were Not Always Used or Safeguarded 

              Appropriately....................................................................................... 6 


                 Recommendations ............................................................................... 8 


        Finding No. 3 – Calling Cards Were Not Always Canceled Timely ............ 8 


                 Recommendations ............................................................................... 9 


OTHER MATTERS............................................................................................... 10 


BACKGROUND ................................................................................................... 11 


OBJECTIVES, SCOPE, AND METHODOLOGY............................................... 12 


STATEMENT ON MANAGEMENT CONTROLS............................................. 15 


ATTACHMENT 1 - Department of Education Response..................................... 16 

                                EXECUTIVE SUMMARY 


The Government telephone calling card program is part of the General Services Administration (GSA)
Federal Technology Service (FTS) 2001 contract. GSA awarded the FTS2001 contract to Sprint and
MCI WorldCom in December 1998 and January 1999 respectively. The Department of Education
(Department) has contracted with Sprint for FTS, including telephone calling card services.

Department policy states calling cards will be issued if necessary for employees to effectively perform
their duties. Principal Offices (POs) can also apply for conference calling cards to use when setting up
conference calls.

The objectives of our audit were to (1) assess the Department’s controls over the telephone calling card
program, (2) determine the accuracy of amounts billed, and (3) assess the appropriateness of selected
charges.

We found improvements were needed in the Department’s management of the calling card program.
Our audit did not reveal any inaccurate billings, however, we did find that calling cards were not
always used or safeguarded appropriately, and calling cards were not canceled timely when staff
separated from the Department or no longer needed the card. Inappropriate use of calling cards
represents abuse of a Government-provided resource, and compromises the integrity of the
Department. To correct the weaknesses we identified, we recommend that the Chief Information
Officer:

• 	 Establish clear, consistent policies and procedures for the calling card program, including
    authorization, use, billing, monitoring, and cancellation.
• 	 Ensure all Department employees are aware of and held accountable for following the policies.
• 	 Update the calling card application form to include a section for supervisory approval.
• 	 Utilize call-blocking features to limit calling privileges to only those that are deemed necessary.
• 	 Remove the Personal Identification Number (PIN) from the calling card.
• 	 Establish a procedure for detailed billings to be distributed timely and reviewed and approved by
    the applicable PO, as well as the individual cardholder.
• 	 Establish a procedure to request periodic certification from POs for all open accounts.
• 	 Establish a procedure to receive timely notice from the Human Resources Group (HRG) for all
    staff that have separated from the Department or transferred to another PO so that accounts can be
    canceled or reallocated to the appropriate PO.
• 	 Provide appropriate training on the calling card program.
• 	 Ensure cardholders are informed of their responsibilities and the disciplinary actions that may be
    taken for calling card misuse.
• 	 Establish a policy prohibiting the sharing of card numbers and ensure each employee or contractor
    in need of a calling card applies for one.
• 	 Encourage employees to use their calling card for authorized personal calls while on travel as
    opposed to claiming them on their travel vouchers.


ED-OIG/A19-B0011                             	                                     Page 1
The Department concurred with our findings and recommendations and the Other Matter presented.
The full text of the Department’s response is included as Attachment 1 to this audit report. The
Department’s response does not warrant any changes to the draft report.




ED-OIG/A19-B0011                                                               Page 2
                                   AUDIT RESULTS 


Overall, we found improvements were needed in the management of the Department’s calling
card program. Our audit revealed calling cards were not always used or safeguarded
appropriately, and calling cards were not canceled timely when staff separated from the
Department or no longer needed the card. Inappropriate use of calling cards represents abuse of
a Government-provided resource and compromises the integrity of the Department.

The Department concurred with our findings and recommendations and the Other Matter
presented. The full text of the Department’s response is included as Attachment 1 to this audit
report. The Department’s response does not warrant any changes to the draft report.


Finding No. 1 – Improvements Were Needed in the Management of the 

                Department’s Calling Card Program 



Our review of controls over the Department’s telephone calling card program identified
management control weaknesses in need of improvement. Specifically, we found:

• 	 Department policies and procedures on the calling card program were limited and were not
    followed;
• 	 The calling card application form did not have a place for supervisory approval to be noted;
• 	 Calling card features were not limited to only those necessary;
• 	 Calling cards were issued with the 4-digit PIN shown on the front of the card after the 10-
    digit card number.

We also noted:

• 	 Department policies were inconsistent with regard to allowable uses of the card (See Finding
    No. 2);
• 	 Neither the POs nor the individual cardholders received data by which to assess the
    appropriateness of calls made or determine the accuracy of amounts billed (See Finding No.
    2);
• 	 Calling cards were not canceled timely. (See Finding No. 3)




ED-OIG/A19-B0011                             	                                     Page 3
General Accounting Office Internal Control Standards and Department Policy Guidelines
for Calling Cards

General Accounting Office Standards for Internal Control in the Federal Government, dated
November 1999, states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form.

       Internal control serves as the first line of defense in safeguarding assets and preventing
       and detecting errors and fraud…Internal control should be designed to provide reasonable
       assurance regarding prevention of or prompt detection of unauthorized acquisition, use,
       or disposition of an agency’s assets.

The Department’s Wireless Telecommunications Services Directive (Directive), dated August 23,
2001, Section V, Calling Cards, states, “Typically, calling cards require a discreet Personal
Identification Number (PIN) for security purposes.” Section VI, Responsibilities, states
Department supervisors are to certify the requirement of wireless telecommunications services
for employees under their supervision.

Until the issuance of the Directive noted above, the Department had very limited guidance
available on calling cards. Available guidance consisted of a general statement on telephone
usage in the Personal Use of Department Equipment policy, dated January 31, 2000. Guidance
on calling card usage was also provided within the Department’s Desk Reference Guide—
Travel Management, dated 1998, and the Federal Student Aid (FSA) Travel Handbook, dated
October 20, 2000. There was no guidance available on calling card billing, monitoring, or
cancellation.

While the new Directive offers some additional guidance, we noted that the Department is not
always following the guidance. For example, the Directive refers to discreet PINs for calling
cards and supervisory certification. However, calling cards are issued with the four-digit PIN on
the face of the card after the account number, and the application form provides no place for
supervisory certification. Office of the Chief Information Officer (OCIO) staff indicated they
plan to expand the Directive to better address calling cards.

We also found inconsistent policies regarding calling card usage. The Department’s policy on
personal use of equipment and the current calling card application form state that calls for other
than official business are unauthorized. The Department’s Desk Reference Guide on Travel
Management includes personal calls as authorized calls for employees on official travel for one
or more nights, and encourages the use of the FTS system to the maximum extent possible. The
FSA Travel Handbook prohibits making personal calls with the calling card. (See Finding No. 2
for specific citations.)




ED-OIG/A19-B0011                                                                    Page 4
OCIO staff received training on the Sprint Interactive Desktop Reporting (SPIDR) system in
September 2001, even though the Sprint FTS contract had been in place since December 1998.
The lack of training prevented OCIO from providing call detail reports to a PO if requested, and
utilizing the 10 call-blocking features offered by Sprint. Our review noted that all calling cards
had been issued with both domestic and international calling privileges regardless of need.

At the exit conference, OCIO staff indicated that they would be utilizing a new system in fiscal
year (FY) 2003 called the Telecommunications Automated Tracking System (TATS). This
system will facilitate the use of call-blocking features. A supervisory approval section on the
application form will also be provided under TATS in 2003.

The lack of clear, consistent policies and procedures has hindered efficient calling card
administration and management throughout the Department and increased the risk of misuse.


Recommendations:

We recommend the Chief Information Officer:

1.1 	   Establish clear, consistent policies and procedures on the calling card program, including
        authorization, use, billing, monitoring, and cancellation.

1.2 	   Ensure all Department employees are aware of and held accountable for following the
        policies.

1.3 	   Update the calling card application form to include a section for supervisory approval.

1.4 	   Utilize call-blocking features to limit calling privileges to only those that are deemed
        necessary.

1.5 	   Remove the PIN from the calling card. Employees could receive the PIN under separate
        cover from Sprint and memorize it the same way as with other credit or debit cards.




ED-OIG/A19-B0011                              	                                       Page 5
Finding No. 2 – Calling Cards Were Not Always Used or Safeguarded
                Appropriately


Cardholders did not always use or safeguard their calling cards appropriately. We reviewed FY
2001 activity for 20 individual calling cards and 1 conference calling card and found that 769 of
the 1,771 individual calls reviewed (43 percent) were inappropriate and 67 of the 1,771
individual calls reviewed (4 percent) were unaccounted for. For the conference card, we found
that 18 of the calls reviewed (100 percent) were unaccounted for. Specifically, we found that:1

    • 	 Five cardholders charged inappropriate personal calls to their card.
            -	 Two of these individuals indicated a family member used the card for personal
                calls.
            -	 One cardholder made personal calls via the calling card while on official travel
                and also claimed $7.00 per day for personal calls on their travel vouchers.
    • 	 Four cardholders were sharing their cards with other employees or contractors. One of
        these cardholders was unable to account for 61 of the calls made.
    • 	 Two cardholders were unable to account for calls charged to their cards.
    • 	 One PO was unable to account for any of the calls charged to a conference calling card or
        identify the user(s) of the card. The PO has subsequently asked to have the card
        canceled.

Due to the low per minute rate for calling card calls, the total cost of the inappropriate calls noted
was not material. However, the issues identified indicate the need for improvements in controls
over the program.

The risk for misuse is heightened and accountability is lessened when calling cards are shared.
Allowing individuals to use calling cards for authorized personal calls or claim authorized
personal calls on their travel vouchers increases the risk that employees may do both and could
exceed their maximum daily limit. Inappropriate use of the calling cards by individuals
represents abuse of a Government-provided resource, and compromises the integrity of the
Department.




1
  Some cardholders are represented in more than one category. In addition, since our audit results are based on high-
risk samples, the outcome should not be projected to the universe of Department cardholders or charges. See the
Objectives, Scope, and Methodology section of this audit report for more details on the samples reviewed.

ED-OIG/A19-B0011                                      	                                            Page 6
General Accounting Office Internal Control Standards and Department Policy Guidelines
for Calling Card Usage and Safeguarding Assets

General Accounting Office Standards for Internal Control in the Federal Government, dated
November 1999, Examples of Control Activities, Physical Control over Vulnerable Assets,
states:

       An agency must establish physical control to secure and safeguard vulnerable assets.
       Examples include security for and limited access to assets such as cash, securities,
       inventories, and equipment which might be vulnerable to risk of loss or unauthorized use.

The Department’s Wireless Telecommunications Services Directive, Section VI, Responsibilities,
Part D, states, “Department employees are to provide reasonable care and security of wireless
devices, calling and conference cards.”

The Telephone Credit Card Request Form, located on the Department’s intranet site, states,
“This credit card is to be used only for official government business.”

The Personal Use of Department Equipment policy issued on January 31, 2000, states:

       Unauthorized uses include incurring government charges for long distance telephone
       calls for other than official business…and using the telephone to make or receive private
       business calls. Employees are responsible for ensuring that Department equipment is
       utilized in an efficient manner with an emphasis at all times towards conserving
       Government property and resources.

The Department’s Desk Reference Guide – Travel Management, Chapter VII, Miscellaneous
Expenses, states that authorized telephone calls include calls made to conduct official ED
business. Personal calls are allowable under certain conditions, including calls made while on
temporary duty travel.

The FSA Travel Handbook, Allowable Expenses, states, “If you need a telephone calling card to
perform your official duties, you will be issued one. No personal calls may be made on the
card.”

The Department did not have a procedure in place to review and monitor calling card usage or to
provide appropriate safeguards. OCIO staff did not receive training on the SPIDR system, a
database that includes detailed calling card charges for Department employees, until September
2001, 33 months after the contract started. OCIO also noted that due to limited staffing
resources, it did not have the staff to review calling card billings. As of April 2002, OCIO
telecommunications staff began providing a monthly report of total calling card charges made by
PO cardholders to the applicable Executive Officers to facilitate a review for inappropriate card
usage. Detailed information on calling card charges was sent only if requested by PO
management.




ED-OIG/A19-B0011                                                                  Page 7
The Department does not have a calling card training program for new cardholders or refresher
training for existing cardholders. Cardholders may not be aware of all of their responsibilities
under the program, the prohibitions on card usage, and the disciplinary actions that may be taken
for inappropriate use of the card. During our review, we asked PO Executive Officers whether
they provide training for new cardholders. We found that although some initial materials may be
provided and discussions held, no formal PO-level training is being provided when employees
receive their calling cards. At the exit conference, OCIO officials indicated they would consider
incorporating calling card issues into the annual security training for Department staff.

Recommendations:

We recommend the Chief Information Officer:

2.1 	   Ensure cardholders are informed of their responsibilities and the disciplinary actions that
        may be taken for calling card misuse.

2.2 	   Establish a policy prohibiting the sharing of card numbers and ensure each employee or
        contractor in need of a calling card applies for one.

2.3 	   Encourage employees to use their calling cards for authorized personal calls while on
        travel as opposed to claiming them on their travel vouchers.

2.4 	   Establish a procedure for detailed billings to be distributed timely and reviewed and
        approved by the applicable PO and cardholder. Reports, at a minimum, should include
        cardholder name, calling to/from location and phone numbers, length of call, and cost.

2.5     	 rovide appropriate training on the calling card program. Include calling card issues in
        P
        annual ethics training.




Finding No. 3 – Calling Cards Were Not Always Canceled Timely


Calling cards were not always canceled timely for staff that separated from the Department or no
longer needed the card. In October 2001, telecommunications staff provided an active calling
card account listing to each PO and requested Executive Officers to review the report and
identify any cardholder account numbers that should be discontinued. A follow-up verification
was performed in December 2001. OCIO’s review identified 597 of 1,509 active accounts (40
percent) in need of cancellation for Department staff that separated or no longer needed the card.
We identified one employee who retired from the Department in September 1999, but whose
card was not discontinued until October 2001. [We did not note any use of the card during this
time period.]


ED-OIG/A19-B0011                              	                                      Page 8
The Department’s Wireless Telecommunications Services Directive, Terminating Wireless
Services, states:

        For routine terminations, the Executive Officer shall complete and submit to the
        Telecommunications Manager a Wireless Services Request Form, identifying the services
        and equipment to be terminated. The Telecommunications Manager will distribute a
        Final Closeout Report for each terminated device after the final billing cycle is complete.

OCIO telecommunications staff relied on Executive Officers to inform them when employees
separated from the Department, transferred to another PO, or no longer needed the card. They
did not receive any information directly from HRG to ensure they had received notice of all staff
leaving or transferring within the Department. The Department is at risk for inappropriate
charges after the employees separate from the agency. In addition, POs may be paying charges
for employees that have transferred to another PO, as calling card charges are allocated to POs
based on employees’ designated organizational codes in the GSA system.


Recommendations:

We recommend the Chief Information Officer:

3.1 	   Establish a procedure to receive timely notice from HRG for all staff that have separated
        from the Department or transferred to another PO so that accounts can be canceled or
        reallocated to the appropriate PO.

3.2 	   Establish a procedure to request periodic certification from the POs for all open accounts.




ED-OIG/A19-B0011                              	                                     Page 9
                                    OTHER MATTERS 




Allowance for Authorized Personal Calls While on Official Travel

During our review, we noted the use of calling cards for personal calls by employees who were
on official travel. The Department’s Desk Reference Guide-Travel Management, states
authorized calls include personal calls, limited to $7.00 per lodging night, for employees who are
on temporary duty travel, on house-hunting trips, or traveling in conjunction with a permanent
change of station. Authorized calls are to be made using the FTS network or Government credit
cards to the maximum extent possible.

During our review, concerns were raised with regard to the current policy. While the calling
card presents the most economical way to make calls due to the low cost per minute, employees
have no way of knowing when they have exceeded the $7.00 personal call limit until after the
fact, if at all. Since individuals and their supervisors did not receive detailed calling card billing
statements for review, they had no way of knowing whether the limit was exceeded and
reimbursement to the Department was necessary.

We suggest the Department consider revising the policy for authorized personal calls for staff on
official travel from dollars per day to minutes per day. This would provide an easier way for
employees to track their personal calls while on travel to ensure they do not exceed the
established maximum limit.




ED-OIG/A19-B0011                                                                      Page 10
                                    BACKGROUND 


The Government telephone calling card program is part of the GSA FTS 2001 contract. GSA
awarded the FTS2001 contract to Sprint and MCI WorldCom in December 1998 and January
1999 respectively. The term of each FTS2001 contract is 96 months, consisting of a 48-month
basic contract period with four 12-month option periods. The FTS2001 contract has an expected
ceiling of $11.5 billion over the next eight years. Under FTS2001, prices will continue to drop to
less than 1 cent per minute by the end of the contract.

The Department’s OCIO, Telecommunications Group, is responsible for telecommunications
administration, management, and wireless services support for all Department staff. The
Department's FTS2001 Voice Service includes domestic, international, calling card, and toll-free
service. GSA bills the Department directly and the Department then allocates these local and
long distance service costs to each PO’s designated organization code. Unlike travel cards, the
Department, not individual users, is responsible for paying all calling card bills.

Department policy states calling cards will be issued if necessary for employees to effectively
perform their duties. POs can also apply for conference calling cards to use when setting up
conference calls. Department calling card activity for FY 2001 consisted of 98,289 individual
calls valued at $28,124 and 4,239 conference calling card calls totaling $182,831.




ED-OIG/A19-B0011                                                                  Page 11
             OBJECTIVES, SCOPE, AND METHODOLOGY



The objectives of our audit were to:

1. Assess the Department's controls over the telephone calling card program.
2. Determine the accuracy of amounts billed.
3. Assess the appropriateness of selected charges.

To accomplish our objectives, we obtained an understanding of the controls in place at the
Department over the telephone calling card program. We conducted interviews with Department
management and staff responsible for administering the program. We also met with GSA and
Sprint representatives to obtain an understanding of the services provided under the FTS2001
contract. We reviewed applicable sections of the FTS2001 contract, Departmental policies and
procedures, and General Accounting Office Standards for Internal Control in the Federal
Government. We also reviewed Department monthly billing statements from GSA, individual
and conference calling card data and reports from Sprint, and other documentation available at
the Department to evaluate the accuracy and appropriateness of calling card charges made.

To perform our audit, we obtained access to the SPIDR system for all Department activity. This
system is a reporting package provided by Sprint as part of the GSA FTS2001 contract. It
includes all calling card activity for both individual and conference card accounts. We
downloaded all calling card transactions for FY 2001 and determined the following activity
occurred during the year:

Account Type               # of Calls             Value of Transactions
Individual                   98,289                     $28,124
Conference                    4,239                   $182,831

In order to assure ourselves of the reliability of the data downloaded, we tested the accuracy and
authenticity of the Sprint database by comparing detailed report totals to monthly billing totals
and record counts. Based on these tests and assessments, we concluded the data were
sufficiently reliable to be used in meeting the audit's objectives..

Details on the sampling methodology used in the audit are as follows:

Individual Calling Cards Reviewed:

We selected our individual calling cards to review based on the categories noted below.
Eliminating accounts that occurred in more than one of the categories, we reviewed the accounts
of 20 cardholders.



ED-OIG/A19-B0011                                                                   Page 12
• 	 Annual Charges -- We reviewed calls for the 10 cardholders with the highest calling card
    charges for FY 2001.
• 	 Monthly Charges -- We reviewed calls for four cardholders with the highest monthly
    charges during FY 2001.
• 	 Travel Card Audit Referrals -- We reviewed the charges for cardholders who were
    identified as having inappropriate charges or Automated Teller Machine withdrawals under
    the Audit of Controls over Government Travel Cards [A19-B0010]. We selected the top six
    individuals with annual calling card charges greater than $50.00.

We limited our review to high-risk charges, identified as:

   1) 	 Calls made on a weekend;
   2) 	 Calls made on a Federal holiday; and
   3) 	 Calls made to or from an international location.

For FY 2001, individual cardholders charged 98,289 calls valued at $28,124. For the 20
cardholders in our sample, there were 11,784 FY 2001 calls valued at $4,428. This represented
12 percent of the total number of calls and 16 percent of the total value of the calls charged by
individual cardholders during the fiscal year. We reviewed 1,771 of the calls in our sample,
based on the high-risk criteria above.

To determine whether charges were appropriate, we used an Internet phone number search tool
and Department phone directories. When there was evidence that inappropriate calling card
usage may have occurred, or if we could not obtain any information about the calls, we referred
the matter back to the applicable PO Executive Officer for further clarification. The results
presented in this report are based on the responses from the Executive Officers.

The distribution of individual calling card accounts sampled appears on the next page.


Conference Calling Cards Reviewed:

For FY 2001, Department POs charged 4,239 conference calls valued at $182,831 on conference
calling cards. We judgmentally selected the conference calling card with the highest number and
dollar value of calls made during the FY. This account, from FSA, had 1,742 conference calls
valued at $52,655, representing 41 percent of the total number of conference calls and 29 percent
of the total value of the calls charged during the fiscal year. We reviewed 18 of the calls in our
sample, based on the high-risk criteria above. As there was no data available that would enable
us to identify international calls on conference calling cards, we limited our review to calls made
on weekends and holidays.

We referred all high-risk charges to the PO Executive Officer for determination as to whether the
charges were appropriate. The results presented in this report are based on the response from the
PO Executive Officer.




ED-OIG/A19-B0011                             	                                     Page 13
Distribution of Individual Calling Cards Sampled by PO:

     Federal Student Aid                                           11 

     Office of Educational Research and Improvement                 2

     Office of the Secretary                                        2

     Office of Vocational & Adult Education                         1

     Office of Special Education/Rehabilitation Services            4


     Total Individual Calling Cards (5 POs)                        20


We performed our fieldwork at applicable Department of Education offices in Washington, DC,
during the period October 2001 through June 2002. We held an exit conference with Department
management on July 1, 2002. Our audit was performed in accordance with Government
Auditing Standards appropriate to the scope of the review described above.




ED-OIG/A19-B0011                                                             Page 14
            STATEMENT ON MANAGEMENT CONTROLS


We made a study and evaluation of the Department's management control structure related to the
Government telephone calling card program. Our study and evaluation was conducted in
accordance with Government Auditing Standards. For the purpose of this report, we assessed
and classified the significant management control structure into the following categories:

   •	   Authorization
   •	   Use
   •	   Payment
   •	   Cancellation

The Department's management is responsible for establishing and maintaining a management
control structure. In fulfilling this responsibility, estimates and judgments by management are
required to assess the expected benefits and related costs of control procedures. The objectives
of the system are to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition and that the transactions are
executed in accordance with management's authorization and recorded properly, so as to permit
effective and efficient operations.

Because of inherent limitations in any management control structure, errors or irregularities may
occur and not be detected. Also, projection of any evaluation of the system to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions, or
that the degree of compliance with the procedures may deteriorate.

Our assessment disclosed the following conditions in the Department's management control
structure over Government calling cards, which, in our opinion, results in more than a relatively
low risk that errors, irregularities and other inefficiencies may occur resulting in inefficient
and/or ineffective performance.

• 	 Improvements were needed in the management of the Department’s calling card program.
• 	 Calling cards were not always used or safeguarded appropriately. Cardholders and their
    family members made unallowable personal phone calls with their calling cards, and
    cardholders shared their card with other Department staff or contractors. Some cardholders
    were unable to account for all calls charged to their card.
• 	 Individual calling cards were not always canceled timely when employees separated from the
    Department or no longer needed the card.

Nonmaterial weaknesses, which in the auditors’ judgment are reportable conditions, are included
under the OTHER MATTERS section.




ED-OIG/A19-B0011                             	                                    Page 15
                                                                                                             ArrAC llM ENT I
                               UNITED STATES DEPARTMENT OF EDUCATION

                                          OFFICE OF THE CHIEF INFORMATION OFFICER

                                                                                              THE CIUEF INFORMATION OFFICER




                                                                                 SEP 26      m

         MEMORANDUM

         TO:              Michele Weaver-Dugan
                          Director, operation~ln""~t}?7                                  .

         FROM:            Craig B. LUigal'                 ~//~
                          Chief Information fficer

         SUBJECT:         Draft Audit Report
                          Audit of Controls over Government Calling Cards
                          Control Number ED·OIGIA19·B0011


         We have reviewed this draft audit report and concur with all of the findings and
         recommendations.

         We have taken and are taking corrective actions for all of the recommendations, which
         we wi ll set forth in our corrective action plan once the final audit report is issued.

         We look forward to receiving the final audit report and towards a speedy resolution
         process.




                                      400 IoIARYL.V<D AVE •• S.W. WASHINGTON. D.C 202Q2. 4!o8Q
                                                                  """"'W."'.""
                 Ow """'"" i.s 10 eM"'"   equal~..   10   """"",ion ancIlO _ _ .d""",ion<o/ ...c<U.".«   ~"""',   1M Na' .....




ED-OIG/A19-B0011                                                                                                                 Page 16
                          REPORT DISTRIBUTION LIST 

                         CONTROL NO. ED-OIG/A19-B0011 


                                                                                  No. of
                                                                                  Copies

Action Official

       Craig B. Luigart, Chief Information Officer                                 1
       Office of the Chief Information Officer
       U.S. Department of Education 

       Regional Office Building, Room 4082 

       7th and D Streets, SW

       Washington, DC 20202 


Other Department Officials/Staff (electronic copy unless otherwise specified)

       Chief of Staff, Office of the Secretary                                     1
       Deputy Secretary, Office of the Deputy Secretary                            1
       Under Secretary, Office of the Under Secretary                              1
       Chief Financial Officer                                                     1
       Deputy Assistant Secretary, Legislation and Congressional Affairs           1
       Assistant Secretary, Intergovernmental and Interagency Affairs              1
       Deputy General Counsel, Office of General Counsel                           1
       Correspondence Control, Office of General Counsel                           1
       Director, Office of Public Affairs                                          1
       Director, Budget Service                                                    1
       Director, Financial Improvement and Post Audit Operations, Office of the
          Chief Financial Officer                                                  1
       Supervisor, Post-Audit Group, Office of the Chief Financial Officer         1
       Audit Liaison Officer, Office of the Chief Information Officer              1
